                        AUDIT REPORT



Highway Contract Routes –
Miles per Gallon
Assessment
   May 27, 2014




                  Report Number NO-AR-14-008
                                                                     HIGHLIGHTS
                                                                         May 27, 2014
                               Highway Contract Routes – Miles per Gallon Assessment
                                                         Report Number NO-AR-14-008
BACKGROUND:
The U.S. Postal Service contracts for        $48.3 million annually for FYs 2012 and
transportation on over 15,000 highway        2013 and could avoid costs of about
contract routes (HCR) by identifying         $48.3 million annually if it contracts for
miles to be driven and negotiating a         future fuel gallons based on at least
base operating rate per mile. Fuel is a      industry MPG averages. Further, if the
major component of HCR total costs.          Postal Service uses industry advanced
The Postal Service negotiates annual         fuel-efficient practices, it can reduce its
fuel allotments based on miles per           carbon footprint, conserve
gallon (MPG), considering past               non-renewable energy resources, and
suppliers’ MPG contracts, and general        save an additional $46.7 million annually
vehicle and route type. In fiscal year       in fuel costs.
(FY) 2012, HCRs used over 242 million
gallons of fuel, costing about               Finally, establishing HCR MPG below
$926 million.                                the industry average results in
                                             excessive annual fuel allottments. This
Our objective was to assess MPG used         can create an environment for fraud,
in the HCR program.                          waste, and abuse. The risk is that
                                             suppliers may use excess gallons for
WHAT THE OIG FOUND:                          non-Postal Service operations, which is
We found the Postal Service’s average        prohibited. Consequently, we made
MPG for HCRs was as much as 2.2              several referrals to the Office of
MPG below industry averages and as           Investigations for supplier contracts with
much as 4.1 MPG below industry               low MPG patterns.
leaders. This occurred because the
Postal Service has no procedures in          WHAT THE OIG RECOMMENDED:
place to ensure contracting officers         We recommended the vice president,
consider industry averages and specific      Supply Management, develop
vehicle classifications when determining     procedures to ensure industry MPG
MPG, nor does it document why MPG            averages and more specific vehicle
for some suppliers are below industry        classifications are used to determine
averages. Further, it does not have a        allotted HCR fuel gallons. We also
comprehensive strategy to ensure that        recommended the vice president,
HCR contractors either use the most          Supply Management, in coordination
fuel-efficient vehicles in the industry or   with the chief sustainability officer and
absorb the cost of using less efficient      suppliers, develop a comprehensive
vehicles instead of passing that cost on     strategy for the use of advanced fuel-
to the Postal Service.                       efficient technology in vehicles and
                                             equipment.
We determined the Postal Service
incurred unnecessary fuel costs of about     Link to review the entire report
May 27, 2014


MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           THOMAS G. DAY
                           CHIEF SUSTAINABILITY OFFICER




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Highway Contract Routes – Miles per Gallon
                           Assessment
                           (Report Number NO-AR-14-008)

This report presents the results of our audit of Highway Contract Routes – Miles per
Gallon Assessment (Project Number 13XG012NO001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Highway Contract Routes - Miles per                                                                                NO-AR-14-008
 Gallon Assessment




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Considering Industry Averages and Vehicle Classifications in Miles per Gallon
  Determinations ............................................................................................................ 2

Further Increasing Miles per Gallon With Best Practices in Line With Industry Leaders . 5

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Monetary Impact ....................................................................................... 15

Appendix C: Industry Standard for Vehicle Classifications ............................................ 18

Appendix D: Fuel Consumption Best Practices ............................................................. 19

Appendix E: Management’s Comments ........................................................................ 21
Highway Contract Routes - Miles per                                                                NO-AR-14-008
 Gallon Assessment



Introduction

This report presents the results of our audit of Highway Contract Routes (HCR) – Miles
per Gallon (MPG) Assessment (Project Number 13XG012NO001). This report is the
third in a series that responds to a request from the postmaster general to review the
HCR Voyager Card Program. Our objective1 was to assess MPG used during the HCR
contracting process. Management uses MPG to establish authorized contract fuel
gallons for suppliers. See Appendix A for additional information about this audit.

The U.S. Postal Service contracts for highway transportation through a competitive bid
process by establishing the miles to be driven and negotiating the operating cost per
mile. It negotiates fuel gallons with suppliers by dividing the miles driven by the gallons
submitted to identify the established MPG, considering general vehicle2 and route3 type.
The total cost includes the negotiated fuel costs, which are a major cost component of
the HCR contracts.

The Postal Service uses two methods to pay for highway contractor fuel:

 The Voyager Card Program, which uses fuel cards issued under the General
  Services Administration's (GSA) SmartPay2® Program.4 This program is used in
  about 21 percent of all HCRs and accounts for about 74 percent of HCR fuel
  expenditures. The Voyager Card Program enables suppliers to purchase fuel directly
  from retail locations and some bulk fuel sites. The Postal Service makes payments
  directly to U.S. Bank’s Voyager Fleet Services Program for these charges.

 The Fuel Price Indexing (Indexing) Program, which about 79 percent of HCRs use
  but which accounts for only 26 percent of HCR fuel expenditures. This method is
  usually used for smaller routes, box delivery routes, and HCRs unable to administer
  the Voyager Card Program. The Postal Service pays a set monthly fuel amount
  based on the annual authorized fuel gallons for routes that use the Indexing Program.

HCR fuel use in fiscal year (FY) 2012 was over 242 million gallons at a cost of about
$926 million; therefore, ensuring that contracts include the correct number of fuel
gallons based on the most economical MPG is crucial in controlling fuel costs in both
the Voyager Card and the Indexing fuel procurement programs.


1
  Our announced audit objective was to assess the operational effectiveness of the HCR Voyager Card Program, but
we modified it to focus on setting contracted fuel gallons. We used MPG as a performance measurement and
included indexed contracts.
2
  Postal Service HCR suppliers use a range of vehicles from light passenger types to heavy-duty tractor trailers.
3
  Some routes have many stops in urban areas and others use the highways to travel across the country.
4
  Federal agency purchase card programs operate under a government-wide GSA SmartPay2 master contract.
Agency purchase card programs must comply with the terms of the contract and task orders under which the agency
placed its request for purchase card services.
                                                            1
Highway Contract Routes - Miles per                                                                 NO-AR-14-008
 Gallon Assessment


Conclusion

We found the Postal Service’s average MPG for HCRs was as much as 2.2 MPG below
industry averages5 and as much as 4.1 MPG below industry leaders.6 The Postal
Service has certain processes for negotiating allotted gallons based on past MPG
information, as well as general vehicle and route type. However, it has no procedures to
ensure contracting officers consider industry MPG averages and specific vehicle
classifications to determine MPG, nor does it have procedures to document why some
suppliers’ MPG are below industry averages. Further, it does not have a comprehensive
strategy to ensure HCR contractors are either using the most fuel-efficient vehicles in
the industry or absorbing the costs of using less efficient vehicles instead of passing
these costs on to the Postal Service.

We determined the Postal Service incurred unnecessary fuel costs for HCRs of about
$48.3 million annually for FYs 2012 and 2013, and could avoid costs of about
$48.3 million annually if it bases contracts for future fuel on at least industry MPG
averages. Further, if the Postal Service uses advanced fuel-efficient practices and
leading technology that are common in the industry, it can reduce fuel costs by as much
as an additional $46.7 million annually, reduce its carbon footprint, help meet its
sustainability goals, and conserve non-renewable energy resources. Excessive fuel
allottments also create an environment for potential fraud, waste, and abuse as
suppliers may use excess gallons for non-Postal Service operations. See Appendix B
for additional details on monetary impacts.

Considering Industry Averages and Vehicle Classifications in Miles per Gallon
Determinations

MPG Averages. The Postal Service’s average MPG for HCRs was as much as 2.2 MPG
below industry averages7 as shown in Table 1.




5
  The vehicle group includes vans and long-haul trucks and uses the indexing fuel program (see Table 1).
6
  Calculated using Postal Service tractor long haul under the Indexing Program average MPG of 6.1 (see Table 1)
compared against the projected industry leading MPG used in our analysis of 10.2 MPG (see Appendix B).
7
  They were below industry averages for the two vehicle types the Postal Service uses, based on the type of fuel
payment program and type of travel.


                                                         2
   Highway Contract Routes - Miles per                                                                NO-AR-14-008
    Gallon Assessment



                           Table 1. Comparing Industry MPG Standards to
                              Actual Contracted Postal Service HCRs

    Postal Service
                                    Voyager Card Fuel Program                       Indexing Fuel Program
      Grouping
Vehicle     Type of              Industry HCR             Difference in       Industry         HCR        Difference
Group        Travel                MPG    MPG                 Miles             MPG            MPG         in Miles
        Highway/Long
                                        6.7        6.4                (0.3)          6.7            6.1           (0.6)
        Haul
Tractor
        Urban/Short
                                        6.5        6.2                (0.3)          6.5            6.1           (0.4)
        Haul
        Highway/Long
                                      10.8         8.8                (2.0)         10.8            8.6           (2.2)
        Haul
 Vans
        Urban/Short
                                        9.1        8.0                (1.1)          9.1            8.2           (0.9)
        Haul
Source: Environmental Protection Agency (EPA) - Smartway. Postal Service Transportation Contract Support System
(TCSS) data.

   Differences in MPG for all vehicle classes, route types, and fuel programs ranged from
   0.3 to 2.2 MPG below the industry average. Since HCR suppliers travel over 1.5 billion
   miles annually and consume over 242 million gallons of fuel, incremental improvements
   in MPG could significantly lower the Postal Service’s fuel costs. For example:

      A heavy-duty vehicle driven for 75,000 miles with an MPG increase of only 0.5 can
       reduce fuel costs by about $3,790 annually.

      By comparison, a light-duty vehicle (passenger vehicle) under the same scenario
       reduces fuel costs by only $230 annually.

   Most HCR contracts included MPG allowances that were below industry averages.
   Specifically, our analysis indicated that over 4,400 HCR contracts were below MPG
   industry standards by vehicle type (tractors and vans), as shown in Table 2. On the
   other hand, over 2,000 contracts with either tractors or vans used MPG that were in line
   or above industry averages.8




   8
    In summary, there are about 15,500 HCRs, of which about 6,400 are tractors and vans. The remaining HCRs were
   out of or audit scope as they contained equipment other than tractors or vans. Refer to the Objective, Scope, and
   Methodology section in Appendix A of this report for details on the HCR universe and our analysis.


                                                           3
Highway Contract Routes - Miles per                                                                    NO-AR-14-008
 Gallon Assessment



           Table 2. HCR Contracts With Below Industry MPG by Vehicle Type

           HCR Contracts Below                HCR Contracts with              HCR Contracts with
               Industry MPG                       Tractors                          Vans
           Less than 1 MPG                                    854                           1,013
           1-2 MPG                                            212                           1,330
           2-3 MPG                                             27                             532
           3-4 MPG                                             29                             312
           4-5 MPG                                               1                             99
           Over 5 MPG                                            6                             21
           Total                                            1,129                           3,307
         Source: TCSS and EPA data.

This occurred because the Postal Service does not have comprehensive policies and
procedures requiring the use of industry averages for MPG when negotiating fuel
gallons in HCR contracts. The Postal Service uses existing contract data of similar
suppliers from TCSS to negotiate MPG and contracted fuel gallon allowances. This
practice relies only on the historical MPG data of the Postal Service’s contracted
suppliers. In addition, the Postal Service does not have adequate processes in place to
require documentation justifying why some suppliers have lower MPG or why the MPG
are lower than industry averages. Establishing MPG below industry averages results in
overstated (excess) fuel gallons and the additional fuel can create an environment for
fraud, waste, and abuse. The risk is that suppliers may use excess gallons for non-
Postal Service operations.9

By using MPG below industry averages, we estimate the Postal Service incurred
unnecessary fuel costs for HCRs of about $48.3 million annually for FYs 2012 and
2013, and could avoid costs of about $48.3 million annually if it negotiates future
contracted fuel gallons based on at least industry MPG averages. See Appendix B for
additional details on monetary impacts.

 Vehicle Classifications. The Postal Service’s vehicle weight classifications are broad
and do not capture specific gross vehicle weight to determine MPG, which is the normal
practice in the transportation industry. We reviewed the Postal Service’s vehicle
grouping in the TCSS and noted the general groupings of HCR medium "vans" and
heavy "tractors" were not in line with the industry practice of using a gross vehicle
weight rating (GVWR).

Table 3 shows examples of vehicle classifications10 and the large MPG differences
among them.



9
  We identified patterns of low MPG for an HCR supplier or contracts with very low MPG individually and
communicated this to the Office of Investigations.
10
   These examples of averages do not consider the impact of type of travel or "duty cycle" that we used for our
analysis.


                                                          4
        Highway Contract Routes - Miles per                                                                    NO-AR-14-008
         Gallon Assessment


                       Table 3. Industry Classifications With Average Industry MPG

     Vehicle
                              Medium-Duty "Vans"                                      Heavy-Duty "Tractors"
     Group
    Industry           3        4         5         6        6            7        7         8A          8A         8B           8B
     Vehicle                                     (LTTL)     (TL)       (LTTL)     (TL)     (LTTL)       (TL)      (LTTL)        (TL)
                                                    11
 Classification
                      10.2     9.3      8.4        8.0       7.7        7.6        7.7       6.3         6.3         6.0        5.9
    Average
 Industry MPG
Source: EPA Truck Carrier Partner 2.0.12 Tool: Technical Documentation 2012 Data Year.
Note: In the table above, industry MPG were calculated from member participants in an EPA study. Data were provided in
widely used Department of Transportation (DOT) classifications and excluded information on duty cycle.

        In 2013, the Postal Service established general MPG guidance for its transportation
        contracting teams to use to negotiate MPG. For medium-duty vehicles or vans, it
        established guidance of 8.5 average MPG, covering vehicle classifications 3 through 6
        in Table 3. For heavy-duty vehicles or tractors, it established guidance of 6.3 average
        MPG, covering vehicle Class 7 through Class 8B in Table 3.

        While this guidance can help improve MPG, it does not accurately reflect MPG across
        all vehicle classifications. By using expanded vehicle classifications, the Postal Service
        could more accurately determine MPG and potentially negotiate contracts with fewer
        gallons using higher MPG, based on vehicle classification. For example, if the Postal
        Service heavy-duty groupings are separated into industry classifications, the Class 7
        vehicles' MPG may increase from 6.3 to 7.6 MPG. See Appendix C for a pictorial view
        of vehicle weight classifications the transportation industry uses and respective MPG
        expectations.

        Further Increasing Miles per Gallon With Best Practices in Line With Industry
        Leaders

        The Postal Service’s average MPG for HCRs was as much as 4.112 MPG below
        industry leaders. This occurred because the Postal Service has not adopted a
        comprehensive strategy to ensure HCR contractors are using the most fuel-efficient
        vehicles in the industry to further increase MPG, reduce fuel costs, and conserve non-
        renewable energy resources.13 In addition, it does not ensure that HCR suppliers are
        absorbing the costs of less efficient investments themselves instead of passing them on

        11
           This EPA research divided Class 6 through Class 8 by GVWR, truck load (TL), and less-than truck load (LTTL),
        and made additional separations in Class 8 at 33,001-60,000 GVWR for Class 8a and greater than 60,000 GVWR for
        Class 8b.
        12
           Calculated using Postal Service tractor long haul under the Indexing fuel program average MPG of 6.1 (see Table
        1) compared to the 10.2 MPG projected industry leading MPG used in our analysis (see Appendix B).
        13
           In 2009, the U.S. Postal Service Office of Inspector General (OIG) recommended the Postal Service develop and
        implement a comprehensive fuel consumption strategy for HCRs that included industry best practices. At the request
        of Postal Service management in April 2013, the OIG closed the prior fuel consumption strategy recommendations as
        "not implemented" due to the Postal Service’s financial condition, despite the documented financial benefits over the
        long run, even when factoring in investment of capital expenditures.


                                                                   5
Highway Contract Routes - Miles per                                                                   NO-AR-14-008
 Gallon Assessment


to the Postal Service via the use of lower MPG and higher gallon allotments in the
contracting process. Since 2008, the Postal Service has reduced fuel use for HCRs by
eliminating trips. If the Postal Service strives to lead the way in reducing its carbon
footprint, it must further reduce HCR transportation fuel consumption, since it is a major
component of the Postal Service's greenhouse gas (GHG)14 emissions.

Fuel-Reduction Efforts. We reviewed the Postal Service’s 2012 Sustainability Report,
which states their goals for reducing transportation petroleum fuel use for contracted
transportation15 is 20 percent by FY 2020. However, it only reduced contracted
transportation fuel by less than 1 percent from 2008 through 2012. This occurred
because the Postal Service’s fuel consumption and sustainability strategy for contract
transportation vehicles has been reducing HCR trips and miles resulting from the
decline in mail volume. While the Postal Service has reduced highway contract miles by
about 100 million since 2008, network optimization alone will not be enough to reach the
fuel reduction goal. Postal Service officials acknowledge they can only cut so many trips
and miles before jeopardizing network operations. Therefore, increased MPG should be
part of a comprehensive sustainability strategy.

Adoption of Advanced Fuel-Reduction Technologies Needed. The Postal Service must
embrace new transportation technological industry best practices. Some leading
practices include using aerodynamic equipment, upgrading to low resistance tires and
lower weight aluminum wheels16 and adopting the next generation of advanced trucks.
As discussed in Appendix D, vehicle manufacturers are developing new technologies
and model options that reduce fuel use, such as the “SuperTruck” shown in Figure 1.




14
   The Postal Service’s 2012 Sustainability Report shows that 44 percent of the Postal Service’s total GHG emissions
are related to contracted transportation.
15
   Contract transportation, as referenced in the Postal Service’s Sustainability Report, includes HCR, air, and rural
route carriers who deliver mail using their own vehicles. In 2012, the Postal Service’s contracted vehicles consumed
nearly 575 million gallons of petroleum, representing over 73 percent of the Postal Service’s total petroleum
requirements for transportation.
16
   Low rolling resistance tires are either single, wide, or energy efficient, dual tires. There are three types of
wheels (rims); steel, low-weight steel, and aluminum, with decreasing weight, respectively. The less weight the
rim holds, the better the fuel economy. A single wide tire and wheel (rim) is lighter than two standard tires and
wheels. Single wide tires have lower rolling resistance and aerodynamic drag.


                                                          6
Highway Contract Routes - Miles per                                                                    NO-AR-14-008
 Gallon Assessment


             Figure 1. Cummins and Peterbilt Motors Company
                             "SuperTruck"




            Source: Cummins and U.S. Department of Energy (DOE) - Energy Efficiency
                                  17
            and Renewable Energy.

Industry-leading transportation companies with similar sustainability goals are
incorporating advanced technologies. These companies are participating in private and
public sector collaborations, such as the 21st Century Truck Partnership (21CTP), the
EPA’s SmartWay Partnership, and the DOE-sponsored SuperTruck Program. Further,
the next generation of heavy-duty vehicle technologies will enter the market in 2015 and
provide additional MPG improvements and fuel-saving opportunities. See Appendix D
for examples of industry best practices.

We determined that, by implementing a comprehensive fuel consumption strategy, the
Postal Service could ensure HCR supplier contractors use industry-leading technologies
to reduce fuel use by about 500 million gallons over 10 years, save an additional $46.7
million annually, and reduce GHG emissions.18 See Appendix B for additional details on
monetary impacts.

Recommendations

We recommend the vice president, Supply Management:

1. Ensure that the best value determination process in Highway Contract Route
   negotiations includes use of industry miles per gallon averages for the proposed
   equipment or properly justifies and documents why lower than industry average
   MPG amounts are used.

2. Use vehicle classifications that are more in line with industry standards to establish
   more precise miles per gallon for determining authorized gallons for highway
   contract routes, based on vehicle type and gross weight.

17
   The demonstration tractor-trailer achieved a 54 percent increase in fuel economy during testing in the fall of 2012,
averaging nearly 10 MPG under real world driving conditions by U.S. Xpress Enterprises Inc. drivers.
18
   This is a long-range strategy to reduce fuel use and costs while ensuring overall best value for the Postal Service.
This may require overall changes in contracting practices, such as extending the contract period to cover the payback
period, including fuel-efficient vehicles and alternate fuel vehicles.


                                                           7
Highway Contract Routes - Miles per                                           NO-AR-14-008
 Gallon Assessment



We recommend the vice president, Supply Management, in coordination with the chief
sustainability officer:

3. Develop a comprehensive and cost-effective strategy, in coordination with highway
   contract route suppliers, for using advanced fuel efficient technology in vehicles and
   equipment and periodically review that strategy, as necessary, to account for
   continuous, evolving changes in technology.

Management’s Comments

Management agreed with the findings and recommendations, but disagreed with the
monetary impact calculations. Below is a summary of management’s responses to our
recommendations.

Regarding recommendation 1, management stated they would incorporate industry
MPG as a benchmark in the price analysis and contract negotiation processes. The
target completion date is September 30, 2014.

Regarding recommendation 2, management agreed to incorporate industry vehicle
classifications and industry average MPG information for use in contract negotiations
and assessing authorized gallons for HCRs. The target completion date is September
30, 2014.

Regarding recommendation 3, Supply Management and the Office of Sustainability are
actively working with HCR suppliers to promote alternative fuel use and implement fuel-
efficient technology equipment to improve its sustainability and reduce costs.
Management agreed to develop a comprehensive and cost-effective strategy for using
evolving industry technology. The target completion date is January 31, 2015.

Regarding our monetary impact methodology, management stated the report does not
provide analytical support that using industry MPG would result in $96.6 million in cost
avoidance over a 2-year period. The Postal Service noted using vehicles that achieve
high MPG may increase a supplier’s overhead and total contract costs. Management
also stated the report does not provide specific data to support conclusions that using
industry advanced fuel-efficient practices will save $46.7 million annually. They stated
while they support the use of sustainable practices and technology, suppliers’
investments in these technologies will impact costs and may increase the Postal
Service’s total contract cost. Management stated they will continue to work with
suppliers and explore various options to enhance sustainability while exercising prudent
cost controls.

See Appendix E for management’s comments in their entirety.




                                            8
Highway Contract Routes - Miles per                                         NO-AR-14-008
 Gallon Assessment



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding management’s comments on our monetary impact calculations, our
approach and methodology is sound. We explained and provided the full monetary
impact analysis, including our assumptions and calculations, to management on several
occasions and they did not request additional information or raise any concerns during
the audit. We also considered offset purchase costs for advanced equipment totaling
over $657 million. Finally, our report clearly addresses return on investment
opportunities resulting from reducing fuel use for contracted surface transportation by
about 500 million gallons over 10 years (or about 50 million gallons annually).

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           9
Highway Contract Routes - Miles per                                                                    NO-AR-14-008
 Gallon Assessment



                                 Appendix A: Additional Information

Background

The Postal Service's HCR fuel use in FY 2012 was over 242 million gallons at a cost of
about $926 million. Therefore, ensuring that contracts include the correct amount of
contract fuel gallons based on the most economical MPG is crucial in controlling fuel
costs in both the Voyager Card and the Indexing fuel procurement programs.

The Postal Service Network. The Postal Service has one of the largest transportation
and logistics networks in the world, reaching every community, town, and city in the
U.S. It relies on an extensive network of contract partners to move mail primarily by
highway and air.19

Postal Service mail volumes have declined by almost 54 billion pieces, or 25 percent,
since 2007. This dramatic drop in mail volume has made it challenging for the Postal
Service to efficiently operate, fund, and sustain its transportation network. Declining mail
volume has led to significant excess capacity in the transportation network, which
provided opportunities to consolidate trips and optimize the network. The Postal Service
has undertaken several initiatives since 2008 to optimize its network by reducing the
number of miles traveled and fuel consumption for transporting mail by HCR and air.

Negotiating MPG and Allotted Fuel Gallons for HCR Contracts. Each HCR is negotiated
and awarded or renewed individually about every 4 years. The Postal Service contracts
for highway transportation through a competitive bid process by establishing the miles
to be driven and negotiating a reasonable operating cost per mile. Fuel costs are
negotiated as a separate20 cost within the total contract and are a major cost component
of HCR contracts. The Postal Service negotiates fuel gallons with suppliers by dividing
the miles driven by the gallons bid to establish an MPG, considering general vehicle and
route type. During the bidding process, the contracting officer will examine MPG and
other cost information to determine whether the bid is reasonable and calculate a total
cost to consider within the context of cost per mile.

Before beginning negotiations, transportation contract specialists review a
Representative Cost Worksheet (called a Scratch Sheet), which is produced in the
TCSS21 using existing contract data. The Postal Service has issued general guidance to
contract specialists on a target MPG for tractor-trailers of 6.3 and straight trucks (vans)
of 8.5.


19
   Contract transportation also includes rail and water. Additionally, the Postal Service contracts with rural route
carriers to deliver mail using their own private vehicles.
20
   Fuel costs are identified on Line 6 of Postal Service (PS) Form 7468A, Highway Transportation Contract – Bid or
Renewal Worksheet. Based on the fueling locations provided by the HCR supplier on the Fuel Purchase Form (HC
131), the contracting officer will determine cost.
21
   TCSS is used to manage transportation contracts and related activities and produces PS Form 7468A, based on
similar records, also known as Scratch Sheets.


                                                          10
Highway Contract Routes - Miles per                                                                NO-AR-14-008
 Gallon Assessment


HCR Fuel Payment Methods. When the Postal Service awards or renews an HCR
contract, it requires all suppliers to participate in the Fuel Management Program, which
provides contract guidance for HCR suppliers to obtain fuel and receive
reimbursement.22 The Postal Service uses two fuel management payment methods for
HCR suppliers: the Voyager Card Program and the Indexing Program.23 The Voyager
Card Program enables the supplier to purchase fuel from retail locations and some bulk
sites and the Postal Service makes payment directly to U.S. Bank’s Voyager Fleet
Services Program. In contrast, the Indexing Program allows the Postal Service to
include fuel as part of the regular contract monthly payment. The amount reimbursed
per gallon is indexed to published regional prices.

Objective, Scope, and Methodology

This audit is the third in a series that assesses MPG used during the HCR contracting
process.24 To address our objective, we obtained, assessed, and analyzed Postal
Service computerized data on HCR and fuel gallons. We also reviewed industry
literature, prior OIG reports, and Postal Service documents; spoke with Postal Service
management and staff; and discussed MPG for the trucking industry with other federal
agencies.

For our analysis, we used the Postal Service's classification of tractors and vans. We
calculated an industry standard MPG for this audit and compared it to the Postal
Service's actual contracted MPG. We identified about 6,400 HCRs with tractors and
vans, which was the basis of our analysis of MPG for the Postal Service. HCRs
generally cover highway transport of mail and equipment between plants; however,
HCRs also cover “box deliveries” (such as delivery service to mailboxes under a HCR),
water service, trailer leasing, and other contracts that use cars, four-wheel drive
vehicles, and other transportation. These HCRs were “out-of-scope” as they did not
contain a van or tractor. Further, the variation in fuel economy of medium- and heavy-
duty vehicles, due to duty cycle (route of travel, such as distance and highway versus
city and other conditions) on performance-related specifications, makes it difficult to set
uniform fuel economy standards. In light of these varying limitations, we took contract
data and separated the two major vehicle classifications (for more on this, see Appendix
C) — tractors and vans — for each contract. We calculated MPG based on contract
miles and fuel gallons and performed additional separations of data, based on average
length of trips and the type of fuel program. To compare these results, we surveyed
industry literature, white papers, academic studies, and government-sponsored studies.
We obtained the figures from database information the EPA accumulated from truck
fleets managed and operated by over 3,000 industry members.




22
   As stated under Clause 2.2.8 in the Terms and Conditions.
23
   A small portion of indexing is still done manually.
24
   Our announced audit objective was to assess the operational effectiveness of the Voyager Card Program, but we
modified it to focus on setting contracted fuel gallons. We used MPG as a performance measurement and included
indexed contracts.


                                                       11
Highway Contract Routes - Miles per                                            NO-AR-14-008
 Gallon Assessment


Our methodology also included an analysis of "green technologies," specifically
fuel-efficient equipment. To determine the economic impact of these advanced
technologies, we identified the best possible MPG by reviewing the studies noted
above. We identified evolving technologies in the transportation industry, reviewed the
DOE-sponsored SuperTruck Program for feasibility and figures, and compared the
results of DOE studies with Postal Service data.

We assessed the reliability of TCSS for comparing results to contract information and
determined that the data were sufficiently reliable for the purposes of this report. We
noted limitations and errors and used compensating steps to overcome them, including
data corrections and exclusions and comparative testing. Our assessment included
testing column totals with other data summaries to ensure the data capture was
complete and reasonable. We compared data on a contract-by-contract basis in TCSS
to our downloaded data and noted two significant error types with the data that required
compensating steps. They were more accurate when aggregated. Although this action
rendered vehicle counts unreliable, they were not within the scope of this audit and
were not required to calculate MPG.

We compared these calculated values to comparable industry benchmarks using
primarily EPA data and benchmarks. We calculated diesel fuel costs using nationally
published average retail prices from the U.S. Energy Information Administration. We
used what is considered the best industry survey of this data and compared those
results to ranges built on our own survey of industry literature. We found the results of
the data to be acceptable for our conclusions; however, given the limitations in Postal
Service classifications within TCSS, these averages are not meant to be authoritative.

We conducted this performance audit from February 2013 through May 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 7, 2014, and included their
comments where appropriate.




                                            12
Highway Contract Routes - Miles per                                                             NO-AR-14-008
 Gallon Assessment



Prior Audit Coverage

The OIG issued four reports25 addressing the Voyager Card Program. The reports
covered ways to reduce fuel consumption and weak controls over the HCR fuel card
including changes to the policy documents and identification of overages.

                                           Report               Final Report            Monetary Impact
          Report Title                    Number                    Date                  (in millions)
Voyager Card Program for                NO-MA-14-001             10/30/2013                   $9.9
Highway Contract Routes –
Unidentified and
Unrecovered Fuel
Overpayments
Report Results:
The OIG estimated that about $9.9 million in fuel overpayments to HCR suppliers were
not properly identified and recovered by the Postal Service for fuel year 2009-2010.
Failure to collect these overpayments occurred because the Voyager Card Program
reconciliation process was not reasonably conducted and documented. We
recommended the Postal Service immediately reconduct the 2009-2010 fuel year
Voyager Card reconciliation in accordance with the pooling and reconciliation
requirements of the Fuel Management Program and the current reconciliation
methodology. Further, the OIG recommended validating and documenting the results of
2009-2010 fuel overpayment determinations and collecting these overpayments.
Management agreed to evaluate the 2009-2010 fuel year reconciliations for any
anomalies and disagreed with the monetary impacts. Managers also stated they would
initiate recoveries of funds resulting from the evaluation of the 2009-2010 fuel year
reconciliations.




25
  The Government Accountability Office (GAO) also issued a report titled U.S. Postal Service: Vulnerability to
Fluctuating Fuel Prices Requires Improved Tracking and Monitoring of Consumption Information (Report Number
GAO-07-244, dated February 16, 2007). The GAO recommended improved tracking and monitoring of transportation
fuel consumption data.


                                                      13
Highway Contract Routes - Miles per                                            NO-AR-14-008
 Gallon Assessment




          Report Title                Report         Final Report       Monetary Impact
                                      Number             Date             (in millions)
High-Risk Voyager Policy          NO-MA-13-003           3/22/2013              None
and Procedure Changes for
Highway Contractor Routes
Report Results:
The OIG identified recent and proposed policy changes that could increase risk of fraud,
waste, and abuse. We recommended the Postal Service reverse the changes made or
provide justification for pooling across all contracts. Further, the OIG recommended the
restatement of the previous language in the Fuel Management Program document,
restricting the use of fuel for non-postal purposes, and continued notification of suspicious
or fraudulent circumstances involving HCR suppliers to the OIG. Management agreed to
revert to the 2011 Fuel Management Program language and reinstate the restriction on
fuel use for non-postal purposes, including the notification of suspicious or fraudulent
circumstances involving HCR suppliers.


Management of the                NL-AR-11-003           6/7/2011              $108
Highway Contract Route
Voyager Card Program
Report Results:
The Postal Service did not always ensure that HCR suppliers purchased only authorized
grades of fuel or remained within the contract limitations on the number of fuel gallons
purchased. We recommended that fuel purchases be more closely monitored, apply
pooling, in accordance with established requirements, and perform all outstanding
reconciliations. These recommendations were closed as of March 2013 with caveats that
we will be revisiting these issues during current and future Voyager Card Program audit
work. Management generally agreed with our findings and recommendations.




                                            14
Highway Contract Routes - Miles per                                                               NO-AR-14-008
 Gallon Assessment



                                      Appendix B: Monetary Impact

We estimate the Postal Service could have avoided unnecessary fuel costs of
$96.6 million for FYs 2012 and 2013. The Postal Service could avoid costs of about
$190.1 million over the next 2 years by including industry MPG averages and
implementing a strategy to ensure that, in the future, contractors use those fuel-efficient
vehicles most in line with industry leaders (see Table 4).

                                         Table 4. Monetary Impacts

            Recommendation                      Impact Category                             Amount
                  1                     Questioned Costs26                                 $96,630,944

                    1            Funds Put to Better Use27                                  96,630,944
                    3            Funds Put to Better Use                                    93,487,116
           Total Funds Put to Better Use                                                  $190,118,060
           Total Monetary Impact                                                          $286,749,004
          Source: OIG analysis.

The standard OIG practice for calculating funds put to better use employs a 10-year
cash flow methodology, discounted to present value by applying factors published by
Postal Service Headquarters Finance. To be conservative in our cost-savings estimate,
we projected savings over 2 years because of the Postal Service's financial condition
and its plans to restructure operations. We applied the factors listed in Table 5.

                                            Table 5. Rates by Type

                                    Rates by Type                                     Factor
                      Risk Factor, Sustaining-High (A)                                  3.50%
                      Cost Of Capital (B)                                               3.10%
                      Discount Rate (A+B)                                               6.60%
                      Fuel Cost Escalation Rate                                         1.40%
                     Source: Decision Analysis Report factors, dated November 18, 2013.




26
     Unnecessary, unreasonable, or unsupported costs.
27
     Funds that could be used more efficiently by implementing recommended actions.


                                                         15
Highway Contract Routes - Miles per                                                                    NO-AR-14-008
 Gallon Assessment


                              Monetary Impacts by Recommendation

                             Table 6. Recommendation 1 – MPG Averages

      Duty Cycle             Tractors         Vans            Total                              Per Year
                                  Indexing Contracts – 2 Years28
 Highway/Long                $ 7,253,501    $ 2,266,697     $ 9,520,198                                         -
 Urban/Short                   6,630,436     21,234,432      27,864,868                                         -
     Total                   $13,883,937    $23,501,129     $37,385,066                         $18,692,533


                                  Voyager Contracts – 2 Years
 Highway/Long                $53,383,946   $ 2,544,686    $55,928,632                                           -
 Urban/Short                  19,076,328    21,580,669      40,656,997                                          -
   Sub-Total                 $72,460,274   $24,125,355    $96,585,629                           $48,292,814
    Offset29                                              (37,339,751)                          (18,669,875)
     Total                                                $59,245,878                           $29,622,939

 Total – Questioned Costs                                                $96,630,944            $48,315,472
 Total – Funds Put to Better Use                                         $96,630,944            $48,315,472
     Source: OIG analysis.

As reflected in Table 6, we estimate the Postal Service incurred unnecessary fuel costs
for HCRs of about $48.3 million annually for FYs 2012 and 2013. Further, it can avoid
costs of about $48.3 million annually if management negotiates future contracted fuel
gallons based on at least industry MPG averages.

We segmented the HCR vehicle and contract information by fuel program, vehicle
classification, and duty cycle by contract using TCSS data as of April 2013. We
compared the contracts to industry averages30 to calculate excess contracted gallons
and calculated the value of those gallons using the U.S. Energy Information
Administration's national diesel rack price.




28
   OIG policy limits each impact type to 2 years. We calculated a 2-year period of impact and applied it to both
questioned costs (historic) and funds put to better use (future impact) for a total of 4 years of impact, as most HCR
contracts are for a 4-year period.
29
   We estimated an offset for unused but authorized gallons that can arise under the Voyager Card Program. As
such, we eliminated the uncertainty under the program as to whether gallons were purchased up to the authorized
limit. Situations where unauthorized use may occur and go undetected because of excessive authorized gallons and
no overage.
30
   We used industry averages from the EPA's database, which were unique in our research because the data were
segmented by duty cycle and vehicle class.


                                                          16
Highway Contract Routes - Miles per                                                                   NO-AR-14-008
 Gallon Assessment



              Table 7. Recommendation 3 – Industry MPG Leader Best Practices

                Analysis Factor Step                                     Total                   Per Year
     10 years31 net present value32 (A)                               $1,469,177,805                            -
     Cost33 (B)                                                          657,398,400                            -
     Net 10-year savings (A-B)=(C)                                       811,779,405                            -
     2 years of 10 (20%) claimable34 (C*20%)                             162,355,882                            -
     Impact claimed35 in prior report36 (2 years)                         68,868,766                            -
     Net Funds Put to Better Use                                         $93,487,116             $46,743,558
     Source: OIG analysis.

As reflected in Table 7, we determined the Postal Service could save $46.7 million
annually over the next 2 years by negotiating with HCR supplier contractors to use
industry leading technologies.

We concluded the Postal Service can achieve the best in fuel management practices
and sustainability by embracing the emerging technologies as exemplified in the DOE
SuperTruck Program. The most recent and authoritative expectations for 2015 release
dates of the SuperTruck Program MPG37 range from 10.17 to 10.43. We used the lower
end of these projections for our analysis. We also used the industry long-haul MPG (6.7
MPG, see Table 1) as the Postal Service’s base figure to ensure no overlap with
recommendation 1. Calculations include both fuel programs and use contracted gallons
from TCSS from April 2013.




31
   The OIG calculations assumed a 10-year life, excluded incremental operating and maintenance costs associated
with the technologies, and assumed that the entire incremental cost will pass through via the vehicle cost line. HCR
suppliers may use higher discount rates and shorter vehicle life estimates in their internal cost-benefit calculations
when considering fuel-saving technologies. Results will vary depending on the input assumptions used and the
contract negotiations.
32
   Discounting begins factoring at 2 years as data is FY 2013 and SuperTruck release is FY 2015.
33
   Cost is neither escalated nor discounted. It estimates a $56,400 incremental cost on 11,656 HCR tractors using the
best available TCSS data.
34
   OIG policy dictates claiming only 2 years of monetary impact.
35
   OIG policy dictates that the same impact dollar cannot be claimed twice.
36
   A prior report, Fuel Management Consumption Strategies for Surface Network Operations (Report Number NL-AR-
09-010, dated September 30, 2009) claimed impact for advanced aerodynamic equipment, which will be standard
equipment in SuperTrucks. The Postal Service never implemented the recommendations in the report were and they
were closed as "Not Implemented."
37
   DOE SuperTruck Program Benefits Analysis, dated December 20, 2012 (see the Market Penetration Analysis).


                                                         17
Highway Contract Routes - Miles per                                                                   NO-AR-14-008
 Gallon Assessment



                   Appendix C: Industry Standard for Vehicle Classifications

Industry practice38 is to group vehicles based on the DOT classification system (see
Figure 2).

                                      Figure 2. Vehicle Classification




     Source: U.S. DOT – National Highway Traffic Safety Administration.




38
  Following passage of the Energy Independence and Security Act of 2007, the National Research Council
appointed a committee to assess fuel economy technologies for medium- and heavy-duty vehicles. It recommended
that any regulation of medium- and heavy-duty vehicle fuel consumption use normalized fuel consumption by the
payload, use the calculation of gallon/ton-mile-the load-specific fuel consumption as the metric, and use an average
(or typical) payload, based on national data representative of the class and duty cycle of the vehicle.


                                                          18
Highway Contract Routes - Miles per                                                                NO-AR-14-008
 Gallon Assessment



                        Appendix D: Fuel Consumption Best Practices

Research reveals that equipment selection may be the most controlled variable within a
fleet and the most important variable driving overall cost reduction. A company’s goal in
selecting equipment should be to drive down fuel and maintenance costs while
increasing residual value. With many new models and advanced technologies offered,
fleet managers have many opportunities to choose equipment that will help them
achieve their sustainability goals.

Green initiatives became an important topic of discussion in the transportation industry
after fuel price volatility appeared in the early 21st Century. Many leading companies
routinely assess whether to take initiatives to increase the sustainability of their vehicle
fleets. It is widely acknowledged in the industry that by moving a company’s fleet toward
increased sustainability, a fleet manager can expect to see significant economic and
environmental benefits. Sustainability in fleet management enhances economic and
environmental performance.

Vehicle and green manufacturers are positioning products to provide companies with
new technologies and model options that improve sustainability. Leading transportation
companies have made significant progress in reaching their sustainability goals. FedEx
is using advanced vehicle technologies to reduce fuel use and reports it has already
achieved the 20 percent improvement in fuel efficiency that was targeted for 2020.
Another example is Walmart, which is using newer tractors, improved aerodynamics,
nitrogen in tires, and auxiliary power units. In 2005, Walmart set a goal of doubling the
fuel efficiency of its truck fleet to 13 MPG by 2015. Walmart moved its MPG up to 7.1
from 5.9 in 2005. In a 2013 report, Walmart stated it improved another 10 percent over
2011.

Recent advances in the heavy-duty trucking industry have been driven by cooperation
within the transportation industry. Many of these leading best practices can be traced
back to the 21CTP, which is a cooperative research and development partnership
including four federal39 agencies, many industry40 partners, and national laboratories.

Some industry leading best practices and strategies to improve fuel economy and
reduce GHG emissions include:

    Improving aerodynamics by installing gap fairings, side skirts, and other
     improvements (this was a prior OIG recommendation).

    Reducing idle time by using shore power, training drivers, and installing an alternate
     power source.

39
  The DOE, DOT, U.S. Department of Defense, and EPA.
40
  As early as 2010 this included Allison Transmission, ArvinMeritor, British Aerospace Electronic Systems (BAE
Systems), Caterpillar, Cummins Inc., Daimler Trucks, North America (which includes Freightliner), Detroit Diesel
Corporation, Eaton Corporation, Honeywell International, Navistar, Mack Trucks, NovaBUS, Oshkosh Truck, Pacific
Car and Foundry Company (PACCAR), and Volvo Trucks North America.


                                                       19
Highway Contract Routes - Miles per                                                                     NO-AR-14-008
 Gallon Assessment



    Upgrading to low rolling resistance tires — “super single” tires — in conjunction with
     lower weight aluminum wheels.

    Using alternative fuel or power sources, such as hybrids, micro-turbines, fuel cells,
     Compressed Natural Gas (CNG)41 or Liquefied Natural Gas, propane, and
     biodiesel.42

    Educating drivers to improve fuel economy by as much as 30 percent. Efficient
     driver behavior includes controlling speed (this was a prior OIG recommendation),
     braking, proper shifting, minimizing engine idling, and conducting pre-trip vehicle
     inspections (tire inspections and tire pressure maintenance were part of prior OIG
     recommendations). Training can be enhanced with a Global Positioning System
     (GPS) and telematics (using GPS was a prior OIG recommendation).

As part of the 21CTP, the EPA developed and implemented "SmartWay" in 2004. This
program identifies current and emerging technologies that create fuel-efficient
tractor-trailer combinations. Thousands of carriers, shippers,43 and manufacturers are
members or affiliates of this highly successful voluntary efficiency program. The
California44 EPA Air Resources Board passed regulations based on the SmartWay
Program.

Since 2004, the DOE has focused much of its 21CTP effort on four SuperTruck projects
to create the next generation of tractor-trailers by 2015. The SuperTruck Program is a
cross-cutting, collaborative industry cost-shared research and development effort
sponsored by the DOE's Vehicle Technologies Program and supported by the
Advanced Combustion Engine R&D, Vehicle and Systems Simulation and Testing, and
Materials Technology subprograms. The four competitively selected industry
SuperTruck project teams are headed by Cummins Inc., Daimler Trucks North America
LLC, Navistar Inc., and Volvo Technology of America, Inc. These industry teams make
up over 90 percent of the heavy-truck market and collectively matched a government
investment of $138 million, largely the result of the America Recovery and
Reinvestment Act of 2009. The DOE estimates that, for 201545 market entry, advances
in technology will yield a 51 percent reduction in fuel use for Class 8 vehicles and a 47
percent reduction for Class 6 vehicles. These estimates appear to be reasonable given
the Cummins, Inc. team expects to complete its work by April 2014. Its test truck's initial
road test already averaged 9.9 MPG on U.S. Route 287 using SAE International's test
standards.



41
   The Postal Service is exploring the use of CNG and other alternative fuels for contract vehicles, but noted that
modifications for vehicles and pumping stations would be a major obstacle.
42
   Excluding contract vehicles, the Postal Service manages one of the nation's largest vehicle and alternative fuel
capable fleets, including recent testing of new diesel engines and electric vehicles.
43
   The Postal Service is not listed as actively participating.
44
   See also the Hybrid Truck Users Forum sponsored in part by CALSTART.




                                                          20
Highway Contract Routes - Miles per                            NO-AR-14-008
 Gallon Assessment


                           Appendix E: Management’s Comments




                                          21
Highway Contract Routes - Miles per        NO-AR-14-008
 Gallon Assessment




                                      22
